U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Christopher M. Gibson v. SEC, et al., No. 20-276
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 31,
2020, and placed on the Court’s docket on September 3, 2020. The response of the United States
is now due, after one extension, on November 4, 2020. We respectfully request, under Rule 30.4
of the Rules of this Court, a further extension of time to and including December 4, 2020, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0276
GIBSON, CHRISTOPHER M.
SEC, ET AL.

CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
571-329-2227
CCRAWFORD!AFPHQ.ORG
OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BOULEVARD
SUITE 307
PALM BEACH GARDENS, FL 33410
BAS@PACIFICLEGAL.ORG
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE.C
OM
GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM

JOHN JOSEPH PARK, JR.
LAW OFFICES OF JACK PARK
616-B GREEN STREET
GAINESVILLE, GA 30501
ASHLEY C. PARRISH
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-737-0500
APARRISH@KSLW.COM
MARK ANDREW PERRY
GIBSON DUNN & CRUTCHER, LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036-5306

